           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    FOLLOW-UP: THE SOCIAL SECURITY
      ADMINISTRATION’S PROGRAM
       FOR ISSUING REPLACEMENT
        SOCIAL SECURITY CARDS
            TO PRISONERS

    November 2011    A-08-10-10141




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      November 23, 2011                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Program for Issuing Replacement
           Social Security Cards to Prisoners (A-08-10-10141)


           OBJECTIVE
           Our objectives were to determine the status of corrective actions the Social Security
           Administration (SSA) had taken to address recommendations in our July 2006 report,
           The Social Security Administration’s Program for Issuing Replacement Social Security
           Cards to Prisoners (A-08-06-16025); and assess the effectiveness of the Agency’s
           controls for issuing replacement Social Security cards to prisoners under prison
           agreements.

           BACKGROUND
           Inmates at Federal, State, or local prisons may need a Social Security card for school or
           work programs or as proof of employment eligibility upon release from prison. However,
           prisoners may not always have access to their original Social Security cards. To assist
           prisons in obtaining replacement Social Security cards on behalf of inmates, SSA allows
           field offices to enter into written agreements or Memorandums of Understanding (MoU)
           with prisons. These agreements outline specific policies and procedures for processing
           prisoners’ replacement card applications and ensuring Social Security number (SSN)
           integrity and security. 1 Only formal, written MoUs signed by a Regional Commissioner
           and authorized correctional facility officials are valid. 2

           Our July 2006 report identified vulnerabilities that may have allowed prisoners to obtain
           replacement Social Security cards improperly. For example, we determined that some
           field offices processed prisoner replacement card applications without required written
           agreements or MoUs. We also determined that some field offices and prisons
           processed replacement card applications without sufficient evidence of the prisoner’s

           1
               SSA, POMS, RM 10225.125 (effective March 3, 2011).
           2
             Because the prisoner replacement card MoU with the Federal Bureau of Prisons covers Federal prison
           facilities nationwide, an Associate Commissioner signed the agreement.
Page 2 - The Commissioner


identity. Further, field offices did not always perform on-site inspections of prison
procedures for submitting replacement card applications and required evidence. We
concluded that SSA would benefit from taking additional steps to strengthen SSN
integrity and reduce its risk of exposure to SSN misuse. SSA agreed with our
recommendations.

To accomplish the objectives of our current audit, we reviewed SSA policies and
procedures for processing prisoner replacement card applications, and interviewed a
representative from SSA’s Office of Income Security Programs. To evaluate
compliance with SSA policies and procedures, we visited six field offices in two SSA
regions. At each field office, we met with personnel responsible for processing prisoner
replacement card applications. We also visited eight prisons serviced by these field
offices, interviewed officials responsible for submitting replacement card applications,
and observed how officials secured Social Security cards. Additionally, we called other
SSA field offices to determine whether they were processing prisoner replacement card
applications, and if so, whether they were doing so under an approved MoU. We also
reviewed replacement card applications submitted by these prisons and processed by
the servicing field offices from January through April 2011. Appendix B includes a
detailed description of our scope and methodology.

RESULTS OF REVIEW
Although SSA had taken steps to enhance controls for issuing replacement Social
Security cards to prisoners, we determined that vulnerabilities still existed, and the
Agency needs to address those vulnerabilities to improve SSN integrity and security.
For example, our review disclosed that some SSA field offices continued to process
prisoner replacement card applications without required MoUs. We also determined
that some field offices improperly accepted prisoner identification (ID) cards as evidence
of identity. Further, we determined that prisons routinely submitted incorrect or
incomplete replacement card applications to field offices. We believe SSA can enhance
SSN integrity and security by working with prison personnel to ensure they fully
understand the prisoner enumeration process, and by instructing field offices to review
prisons when they do not comply with the terms of the MoU.

Steps Taken to Enhance Controls for Issuing Replacement Social Security Cards
to Prisoners

In response to our July 2006 report, SSA formed a workgroup to address our
recommendations and other issues dealing with prisoner enumeration. For example,
SSA terminated all existing MoUs and developed a model MoU. SSA’s Office of
General Counsel must approve any deviation from the model before the Agency can
enter into a prison agreement. 3 SSA also developed a guide for regional and field
offices when negotiating an MoU with a prison to ensure consistency in the negotiation
process and reliability on the facility’s ability to confirm each inmate’s identity. SSA
3
 SSA, Prisoner Enumeration: Guidelines for Negotiating MoUs with Non-Federal Prison Facilities to Issue
Replacement SSN Cards to Prisoners (August 2008).
Page 3 - The Commissioner


performs an on-site review at each prison during the negotiation process and verifies
that investigating each inmate’s identity is a routine practice. When an MoU covers
multiple facilities, SSA visits one location that represents all facilities. In addition, SSA
published instructions for auditing facilities and handling situations when the facility
does not comply with the terms of the MoU.

Some Field Offices Processed Replacement Social Security Card Applications
Without Required Written Agreements

SSA policies require that field offices have formal, written MoUs with prisons to ensure
the integrity of its program allowing prisons to obtain replacement Social Security cards
for prisoners. 4 However, we determined that some field offices processed applications
for correctional facilities/prisoners without such agreements. For example, personnel at
one field office told us they visited a local county jail each month to process
replacement card applications for prisoners, despite not having an approved formal
MoU. The field office manager told us a former district manager established general
guidelines for issuing replacement cards to prisoners in 2002, and staff use the same
procedures today. The manager stated that field office staff used information the jail
had on file to establish prisoner identity. According to the field office, SSA mails Social
Security cards to prisoners’ home addresses.

The manager at another field office told us his staff periodically visited a local juvenile
facility to process replacement cards for prisoners, despite not having an approved
MoU. According to the manager, Department of Corrections personnel were escorting
prisoners to the field office in groups until SSA regional office officials advised the field
office to discontinue this practice. The field office manager told us his staff usually
accepted a birth certificate and prisoner ID card as proof as identity.

Because we limited our review to four States, we do not know the extent to which field
offices in other States processed replacement card applications without an approved
MoU. To protect the integrity and security of the prisoner enumeration process, we
believe SSA should identify field offices nationwide that process prisoner replacement
card applications on behalf of correctional facilities/prisoners, and ensure they are doing
so under an approved written MoU. A representative from SSA’s Office of Income
Security Programs acknowledged that SSA policy requires that field offices have written
MoUs before accepting a certification statement in lieu of identity documents when
processing replacement card applications on behalf of correctional facilities/prisoners. 5




4
    SSA, POMS, RM 10225.125 A (effective March 3, 2011).
5
    Ibid.
Page 4 - The Commissioner


Some Field Offices Improperly Accepted Prisoner ID Cards as Evidence of
Identity

According to SSA policy and procedures, prisoner ID cards are not acceptable evidence
of identity. 6 However, we determined that some field offices improperly accepted
prisoner ID cards as evidence of identity when they processed replacement card
applications. For example, an operations supervisor at one field office told us his office
processed a large volume of replacement card applications from recently released
prisoners, and staff routinely accepted prisoner ID cards as evidence of identity. The
supervisor stated that staff accepted prisoner IDs because it may be the only readily
available evidence of identity the prisoner has, and the Social Security Number
Application Process (SSNAP) 7 allows staff to select “Prisoner ID under formal MoU”
(third-level evidence) as acceptable evidence of identity. The operations supervisor
acknowledged that service representatives in his office did not understand the meaning
of “under formal MoU” and checked this box in SSNAP because they believed it was the
only option available to them.

The assistant manager at another field office told us that recently released prisoners
routinely visited her office to apply for replacement cards and many times only had
prisoner ID cards as evidence of identity. She stated that while staff accepted prisoner
IDs as evidence of identity, they also accepted better evidence (for example, a driver’s
license), if available. The manager at another field office acknowledged that his office
routinely accepted prisoner ID cards as evidence of identity, and staff checked the box
“Prisoner ID under formal MoU” in SSNAP. After our initial discussion, the manager told
us he contacted his regional office, and they advised him to stop issuing replacement
cards to prisoners who provide prisoner ID cards as evidence of identity.

Because we limited our review to four States, we do not know the extent to which field
offices in other States accepted prisoner ID cards as evidence of identity. To protect
the integrity of the enumeration process, we believe SSA should reemphasize to field
office personnel that prisoner ID cards are not acceptable evidence of identity, and
ensure they end this practice. We also believe SSA should remind field offices that
personnel should not check the box “Prisoner ID under formal MoU” in SSNAP when
processing replacement card applications for recently released prisoners who visit field
offices. In addition, to help reduce confusion at field offices, we believe SSA should
consider deleting “Prisoner ID” in SSNAP and replacing it with less confusing language.
A representative from SSA’s Office of Income Security Programs acknowledged that
prisoner ID cards are not acceptable evidence of identity, and that revising SSNAP
language may help reduce confusion at field offices.




6
    SSA, POMS, RM 10225.125 (effective March 3, 2011).
7
 SSNAP is the Agency’s Web-based Intranet application for taking original and replacement card
applications at field offices.
Page 5 - The Commissioner


Prisons Routinely Submitted Incorrect or Incomplete Replacement Social
Security Card Applications

SSA personnel at all six field offices we visited told us they routinely received incorrect
or incomplete replacement Social Security card applications from prisons. For example,
an administrative specialist at 1 field office told us she received about 100 replacement
card applications each month (total from 5 different facilities) and typically returned
about 50 (50 percent) because of incorrect or missing information. Although she told us
that she considers this a “waste of time and highly unproductive,” she acknowledged the
field office had never visited or attempted to contact any of the facilities to discuss this
long-standing problem. Personnel at other field offices told us they generally returned
between 10 and 20 percent of the replacement card applications they received from
prisons because of incorrect or missing information.

Field office personnel told us they returned replacement card applications for various
reasons. For example, personnel at one field office told us they routinely returned
applications to one prison because they were from noncitizens. During our visit to the
prison, counselors confirmed that they routinely submitted replacement card
applications for noncitizens because they were unaware that SSA policy prohibits such
activity under a formal MoU. 8 Counselors acknowledged they had never received
training regarding replacement cards for prisoners. Personnel at other field offices told
us they returned replacement card applications because of unsigned applications, name
changes, missing prisoner numbers, and conflicting data.

While we understand that field office personnel may occasionally need to return
replacement card applications to prisons, we are concerned that some prisons routinely
submit incorrect or incomplete information. Without compliance with those SSA policies
and MoU provisions that help ensure prisoner identity, SSA could issue a replacement
card to the wrong individual or perhaps even a fictitious individual. We believe this is
especially important because prisoners may have a stronger motive than the general
population to assume a new identity, and once released, hide their criminal record.

Opportunity for SSA to Enhance SSN Integrity and Security

We believe SSA has an opportunity to enhance SSN integrity and security by working
with prison personnel to ensure they fully understand the prisoner enumeration process.
We believe field offices should work with prison personnel before they begin processing
replacement card applications from prisons. This would also allow field office personnel
to ensure they have a current list of positions, names, and signatures of prison officials
authorized to certify prisoner identity and submit replacement card applications. In fact,
we determined that five of the six field offices we visited did not maintain a current and
complete signature list of prison officials, as required by SSA policies and procedures.9
As such, SSA did not have assurance that prisoner replacement card applications were

8
    SSA, POMS, RM 10225.145 A and B.4.d. (effective March 3, 2011).
9
    SSA, POMS, RM 10225.135 C (effective October 27, 2009).
Page 6 - The Commissioner


from authorized prison personnel. While we acknowledge that field offices have limited
resources, we believe investing resources up front to ensure prisons fully understand
the terms of the MoU may prevent extra work caused by incorrect or incomplete
replacement card applications.

Officials at several prisons we visited told us they had never met field office personnel to
discuss the prisoner enumeration process, and believed enhanced contact would be
beneficial to both parties. In fact, officials at two prisons thanked us for introducing
them to local field office personnel, and for discussing prisoner enumeration policies
and procedures with them.

SSA policies and procedures instruct field offices to conduct a review when a
correctional facility does not comply with the terms of an MoU (for example, prisons that
routinely submit incorrect or incomplete replacement card applications). However, none
of the field offices we visited had reviewed correctional facilities in their service areas,
despite routine receipt of incorrect or incomplete replacement card applications.
Although we believe the decision to perform a review should be at each field office
manager’s discretion, we believe SSA has a stewardship responsibility to ensure
compliance with all policies and procedures. Furthermore, when field offices routinely
return replacement card applications to prisons because of incorrect or incomplete
information, it raises concerns about SSN integrity and creates unnecessary work.

CONCLUSION AND RECOMMENDATIONS
We commend SSA for working with prisons to help inmates integrate back into society,
and acknowledge the Agency has taken steps to improve the prisoner enumeration
process. However, when field office and prison personnel do not fully comply with
policies and procedures, the Agency is at risk of improper SSN assignment. As such,
we believe SSA would benefit by taking additional steps to strengthen its controls for
issuing replacement Social Security cards to prisoners.

Accordingly, we recommend that SSA:

1. Ensure all field offices that process replacement Social Security card applications on
   behalf of correctional facilities/prisoners do so under an approved MoU.
2. Reemphasize to field office personnel that prisoner ID cards are not acceptable
   evidence of identity, and ensure they end this practice.
3. Consider deleting “Prisoner ID” (third-level identity evidence) in SSNAP and
   replacing it with less confusing language.
4. Work with prison personnel to ensure they fully understand the prisoner enumeration
   process.
5. Instruct field offices to review correctional facilities when they do not comply with the
   terms of the MoU, in accordance with SSA policies and procedures.
Page 7 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the Agency’s comments.




                                    Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
ID      Identification
MoU     Memorandum of Understanding
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security Number
SSNAP   Social Security Number Application Process
                                                                       Appendix B

Scope and Methodology
To achieve our objectives, we reviewed the Social Security Administration’s (SSA)
policies and procedures for processing prisoner replacement Social Security card
applications. We interviewed representatives from SSA’s Office of Income Security
Programs. To evaluate compliance with SSA policies and procedures, we visited eight
prisons and six field offices in two SSA regions. We also called three other field offices
to determine whether they processed prisoner replacement card applications, and if so,
whether they did so under an approved Memorandum of Understanding. We selected
prisons based on prisoner populations and types of prisons (Federal/State/local).

At each field office, we interviewed personnel responsible for processing prisoner
replacement card applications. At each prison, we interviewed officials responsible for
submitting replacement card applications and required evidence, and observed how
prison officials secured Social Security cards. In addition, we reviewed a limited
number of replacement card applications submitted by prisons and processed by field
offices, to assess compliance with SSA policies and procedures. Our tests of internal
controls over this process were limited to gaining an understanding of the program and
performing the audit steps identified above.

The SSA entity reviewed was the Office of the Deputy Commissioner for Retirement
and Disability Policy. We conducted our work from November 2010 through May 2011
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      October 26, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: The Social Security Administration’s
           Program for Issuing Replacement Social Security Cards to Prisoners” (A-08-10-10141) --
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S PROGRAM FOR
ISSUING REPLACEMENT SOCIAL SECURITY CARDS TO PRISONERS”
(A-08-10-10141)

Recommendation 1

Ensure all field offices that process replacement Social Security card applications on behalf of
correctional facilities/prisoners do so under an approved Memorandum of Understanding (MoU).
Response

We agree. We are working to add prison-specific information by State to our Social Security
Number Application Process (SSNAP) system. With this SSNAP enhancement, field office staff
will only be able to process replacement Social Security card applications from correctional
facilities/prisons that have approved MoUs with us. We plan to implement this enhancement in
fiscal year 2013, pending available resources.

Recommendation 2

Reemphasize to field office personnel that prisoner identification cards are not acceptable
evidence of identity, and ensure they end this practice.
Response

We agree. We will send an Administrative Message to field office staff reemphasizing that
prisoner identification cards are not acceptable evidence of identity for issuing replacement
Social Security cards to prisoners.

Recommendation 3

Consider deleting “Prisoner ID” (third-level identity evidence) in SSNAP and replacing it with
less confusing language.
Response

We agree.

Recommendation 4

Work with prison personnel to ensure they fully understand the prisoner enumeration process.
Response

We agree. We will instruct field office staff to ensure prison personnel understand the prisoner
enumeration process.




                                               C-2
Recommendation 5

Instruct field offices to review correctional facilities when they do not comply with the terms of
the MoU, in accordance with SSA policies and procedures.

Response

We agree. We will send an Administrative Message to field offices reminding employees of the
appropriate procedures to follow when prison facilities do not comply with the terms of their
MoUs with us.




                                                C-3
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Ken Coward, IT Specialist

   Jordan Sherman, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs staff at (410) 965-4518.
Refer to Common Identification Number A-08-10-10141.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
